                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A13010004                                                                    Page 1 of 1



         We received allegations from multiple sources that: (1) a Principle Investigator 1 from a higher
         education institution2 had been improperly removed from an NSF award3 and blamed for the
         project's status; and (2) time and effort records were not being maintained for the award. Our
         review determined that the award had been reviewed by two NSF organizations4 subsequent to
         our receipt of the allegations, and that the agency reviews resulted in the direct resolution of
         some of the allegations, and in action plans that have been implemented to resolve the remaining
         allegations. We concluded that the substantive propriety of the removal of the PI from the award
         by the institution is an internal institutional matter outside our purview. The agency reviews
         resolved any procedural defects under NSF rules that might have occurred in carrying out the
         removal. Therefore, no further investigation is necessary at this time.

         This case is closed.




         2


         4




NSF OIG Fonn 2 (11102)
